No. 19-58

IN THE

Supreme Court of the United States
————
XITRONIX CORPORATION,
Petitioner,
v.
KLA-TENCOR CORPORATION, DBA KLA-TENCOR, INC.,
Respondent.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
BRIEF IN OPPOSITION
————

AARON G. FOUNTAIN
Counsel of Record
JOHN M. GUARAGNA
DLA PIPER LLP (US)
401 Congress Ave.
Suite 2500
Austin, TX 78701
(512) 457-7000
aaron.fountain@us.dlapiper.com
Counsel for Respondent
August 23, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

RULE 29.6 STATEMENT
Respondent KLA-Tencor Corporation (now known
as KLA Corporation) has no parent corporation and no
publicly traded corporation owns 10% or more of its
stock.

(i)

TABLE OF CONTENTS
Page
RULE 29.6 STATEMENT ...................................

i

TABLE OF AUTHORITIES ................................

iv

INTRODUCTION ................................................

1

BACKGROUND...................................................

4

REASONS FOR DENYING THE PETITION ....

7

I. There Is No Threat of Endless
Jurisdictional Ping Pong ..........................

7

II. There Is No Circuit Split that Matters
Here ...........................................................

8

III. There Is No Need or Justification to
Revisit Christianson .................................

11

IV. Xitronix Overstates the Importance of
This Case ...................................................

14

V.

The Federal Circuit Has Jurisdiction In
Any Event..................................................

17

CONCLUSION ....................................................

20

(iii)

iv
TABLE OF AUTHORITIES
CASES

Page(s)

Christianson v. Colt,
486 U.S. 800 (1988) ..................................passim
Faragher v. City of Boca Raton,
524 U.S. 775 (1998) ...................................

13

Grable & Sons Metal Products, Inc. v.
Darue Engineering & Mfg.,
545 U.S. 308 (2005) ................................... 12, 19
Gunn v. Minton,
568 U.S. 251 (2013) ..................................passim
Holmes Group, Inc. v. Vornado Air
Circulation Systems, Inc.,
535 U.S. 826 (2002) ................................... 13, 17
In re Lipitor Antitrust Litig.,
855 F.3d 126 (3d Cir. 2017) ...................... 15, 16
MDS (Canada) Inc. v. Rad Source Techs., Inc.,
720 F.3d 833 (11th Cir. 2013) ................... 15, 16
Meritor Savings Bank v. Vinson,
477 U.S. 57 (1986) .....................................

13

Nobelpharma AB v. Implant Innovations, Inc.,
141 F.3d 1059 (Fed. Cir. 1998) .................

14

Patterson v. McLean Credit Union,
491 U.S. 164 (1989) ...................................

12

Seed Co. Ltd. v. Westerman,
832 F.3d 325 (D.C. Cir. 2016) ................... 15, 16
Walker Process Equipment, Inc. v. Food
Machinery & Chemical Corp.,
382 U.S. 172 (1965) ..................................passim

v
TABLE OF AUTHORITIES—Continued
STATUTES

Page(s)

28 U.S.C. § 1295(a)(1)....................... 11, 12, 13, 16
28 U.S.C. § 1338(a) .......................................

19

Leahy-Smith America Invents Act § 19,
Pub L. No. 112-29, 125 Stat. 284, 332
(2011) .........................................................

13

OTHER AUTHORITIES
H.R. Rep. No. 97-312 (1981).........................

16

INTRODUCTION
Xitronix’s petition is a follow-on to its petition for
certiorari in No. 18-1170. The petition in No. 18-1170
challenged the Fifth Circuit’s order transferring the
case back to the Federal Circuit. The current petition
(No. 19-58) mostly duplicates the petition in No. 181170 and is simply directed to the Federal Circuit’s
judgment summarily affirming the summary judgment against Xitronix on its standalone Walker Process
claim. See Pet. 3 n.1. Both petitions raise only the
question of which circuit should have exercised jurisdiction; there is no question relating to the underlying
merits of the standalone Walker Process claim. In
essence, the current petition is just a procedural
box-checking exercise for Xitronix with no additional
substantive dimension.
By the time KLA filed its brief in opposition to the
petition in No. 18-1170, the Federal Circuit already
had issued its summary affirmance. There have been
no further developments that might affect whether
certiorari is appropriate here. Accordingly, this brief
in opposition largely duplicates KLA’s response in
No. 18-1170. The main text remains substantively the
same as in the prior response, with updated citations
and minor wording changes to fit the current petition
and appendix. Several footnotes have been added to
respond briefly to points to which Xitronix has given
additional emphasis since KLA filed its response in
No. 18-1170; the original response had no footnotes.
These are the only substantive changes, and they are
placed in footnotes for ease of reference.
* * *

2
Xitronix sought certiorari to end what it predicted
would be an otherwise-interminable game of jurisdictional ping pong between the Fifth and Federal Circuits.
That prediction proved wrong. Consistent with this
Court’s instructions in Christianson v. Colt, 486 U.S.
800 (1988), the Federal Circuit accepted jurisdiction
under the law of the case doctrine because it found the
Fifth Circuit’s transfer decision plausible. This resolved
the jurisdictional question in the case and extinguished
the primary basis of Xitronix’s request for certiorari.
There is accordingly no need for this Court’s intervention.
In fact, this Court in Christianson emphasized that
it would be undesirable to devote any portion of its
limited docket to such particularized jurisdictional disputes between two courts of appeals. That is precisely
why this Court directed the courts of appeals to employ
the tools of the law of the case doctrine to resolve these
disputes themselves. The Fifth and Federal Circuits
followed those instructions to arrive at a final answer
on jurisdiction here. After-the-fact intervention from
this Court would erode Christianson by encouraging
the circuits to look increasingly to this Court to decide
routine jurisdictional disputes that they already are
equipped to resolve themselves. There is no good
reason to turn back the clock in this manner.
Once the principal foundation of its initial petition
crumbled, Xitronix has tried to salvage the petition by
playing up the Fifth and Federal Circuits’ original
difference of opinion on jurisdiction. But there is no
circuit split that requires this Court’s intervention
because the courts ultimately agreed that the Fifth
Circuit’s decision was plausible. On that point, there
is no circuit split.

3
Moreover, the now-resolved jurisdictional dispute
arose in a very particular context: an appeal of a final
judgment on a standalone Walker Process claim that
was raised in a plaintiff’s complaint and not as a counterclaim to a patent infringement lawsuit. Xitronix
piles on layers of speculation that a hypothetical future
plaintiff might replicate its peculiar Walker Processonly lawsuit in a different regional circuit and ultimately find itself litigating an appeal in that circuit,
thus producing a split with the Fifth Circuit. But no
such circuit split exists today. And there is no urgent
need to foreclose such a remote scenario before it can
ever come to pass. In the unlikely event such a circuit
split arises, it can be dealt with then, with the benefit
of further percolation and something more than a theoretical conflict. This case is not an appropriate vehicle
for review.
All that remains of Xitronix’s argument is an improper
invitation for this Court to legislate. Xitronix effectively asks this Court to overrule Christianson and
rewrite the relevant jurisdictional statutes to send
all appeals concerning Walker Process claims to the
regional circuits. But Congress chose to use the more
general words “arising under” for assessing patentrelated jurisdiction. It did not enact the special,
bright-line rule for Walker Process claims that Xitronix
now demands. This Court interpreted and applied that
language in Christianson more than three decades
ago. Nothing in the intervening time has rendered
that decision obsolete, nor proven it to be unreasonable or unworkable. Moreover, Congress has not seen
fit to overrule Christianson—despite having modified
the same subsection of the same appellate jurisdictional statute to enlarge the Federal Circuit’s exclusive
jurisdiction in response to a different decision from
this Court during that time. Because Congress remains

4
free to take contrary action, stare decisis applies with
especial vigor to this Court’s precedents interpreting
statutes. And because Congress has in fact acted in
an adjacent area since Christianson was decided, the
force of precedent is near its zenith here. Review is
unwarranted.
Finally, the Fifth Circuit was correct to transfer the
case to the Federal Circuit, and the Federal Circuit
correctly accepted jurisdiction under Christianson. There
can be no serious dispute that, under Christianson
itself, Xitronix’s appeal belongs in the Federal Circuit.
The only remaining question was whether Gunn v.
Minton’s later analysis of the dividing line between
state and federal jurisdiction silently modified this
Court’s Christianson holding regarding the allocation
of Walker Process appeals among the federal courts of
appeals in indisputably federal cases. As the Fifth
Circuit correctly explained, Gunn clearly did not have
this effect. Whether viewed afresh or through the lens
of Christianson’s plausibility standard, there was no
error here nor any other reason for this Court’s review.
The petition for certiorari should be denied.
BACKGROUND
The background of this case is set forth in detail in
the opinions included in the appendix to the petition.
The facts most relevant to appellate jurisdiction are
summarized below.
Petitioner Xitronix Corporation (“Xitronix”) filed a
complaint in federal district court alleging a standalone claim under Walker Process Equipment, Inc. v.
Food Machinery & Chemical Corp., 382 U.S. 172 (1965).
Pet. App. 11a, 39a, 74a-78a. Specifically, Xitronix alleged
only a single cause of action for attempted monopolization. Id. And the sole theory underlying its claim of

5
anticompetitive conduct was that Respondent KLATencor Corporation (“KLA”) had allegedly prosecuted
and obtained a patent through fraud on the United
States Patent and Trademark Office. Id. No other
claims or theories were ever added to the case. Id.
Xitronix eventually lost summary judgment on its
standalone Walker Process claim. Pet. App. 70a-93a.
Again, no other claims or antitrust theories were pled
in the complaint or litigated in the case. Fraud on the
Patent Office was an essential element of Xitronix’s
only cause of action. The district court ruled that there
were no genuine issues of material fact and KLA was
entitled to judgment as a matter of law on this claim.
Id.
Xitronix filed its notice of appeal in the United
States Court of Appeals for the Federal Circuit. Pet.
App. 16a. Both Xitronix and KLA agreed that the
Federal Circuit had jurisdiction over the appeal. Pet.
App. 16a, 39a-40a. The parties agreed on this point in
the original appeal briefing, in the supplemental
briefing that the Federal Circuit ordered before oral
argument, at the Federal Circuit oral argument, and
in the supplemental briefing that the Federal Circuit
ordered to be filed after oral argument. Id. On no
fewer than these four discrete occasions, Xitronix told
the Federal Circuit unequivocally that it had jurisdiction over the appeal.
The Federal Circuit disagreed with the parties on
jurisdiction and transferred the case to the Fifth
Circuit. Pet. App. 38a-49a. The principal basis for the
Federal Circuit’s transfer decision was its mistaken
view that this Court’s decision in Gunn v. Minton,
568 U.S. 251 (2013), governed the determination of
which federal court of appeals had jurisdiction over

6
Xitronix’s appeal in an indisputably federal lawsuit.
Pet. App. 41a-48a.
Suddenly, Xitronix abandoned its oft-stated position
that the Federal Circuit had jurisdiction. Pet. App.
17a n.7. Making a complete about-face, Xitronix decided
it wanted to be in the Fifth Circuit instead. Xitronix
thus opposed KLA’s petition for rehearing en banc,
which the Federal Circuit subsequently denied. Pet.
App. 50a-52a.
The Fifth Circuit then applied this Court’s framework in Christianson v. Colt to determine whether it
should accept the transfer under the law of the case
doctrine. Pet. App. 8a-37a. The Fifth Circuit found
the Federal Circuit’s transfer decision implausible.
Id. The Fifth Circuit reasoned, in short, that the
Federal Circuit clearly had exclusive jurisdiction under
Christianson, that Gunn could not be interpreted to
have altered this framework, and that the appeal was
clearly within the Federal Circuit’s jurisdiction even if
Gunn did apply. Id. The Fifth Circuit therefore sent
the case back to the Federal Circuit. Id.
Xitronix then filed its petition for certiorari in No.
18-1170, based chiefly on the premise that only this
Court’s intervention could prevent an endless game
of jurisdictional ping pong. But Xitronix’s petition
overlooked a crucial remaining possibility: that the
Federal Circuit would find the Fifth Circuit’s transfer
decision plausible under Christianson and therefore
accept jurisdiction under the law of the case doctrine.
That is exactly what happened. The Federal Circuit
issued an order that, while criticizing certain aspects
of the Fifth Circuit’s reasoning, found the regional circuit court’s transfer order plausible under Christianson.
Pet. App. 3a-7a. The Federal Circuit therefore accepted

7
jurisdiction, id., and later affirmed the summary judgment on the merits, Pet. App. 1a-2a.
Xitronix then filed this petition for certiorari from
the Federal Circuit’s judgment based on the same jurisdictional arguments it made in the pending petition in
No. 18-1170.
REASONS FOR DENYING THE PETITION
The petition for certiorari should be denied.
I. There Is No Threat of Endless Jurisdictional Ping Pong
As Xitronix has previously acknowledged, the primary basis for its original petition for certiorari has
now evaporated. No. 18-1170, Supp. Pet. Br. 2. The
Federal Circuit properly exercised jurisdiction over
the matter because it found the Fifth Circuit’s transfer
decision to be plausible. Pet. App. 3a-7a. This decision
terminated what Xitronix had incorrectly predicted
would be an interminable game of jurisdictional ping
pong between the two courts. It likewise extinguished
any potential need for this Court’s intervention.
In fact, the process in this case played out as this
Court had prescribed in Christianson. In Christianson,
this Court instructed the courts of appeals to apply the
law of the case doctrine to transfer decisions and
accept jurisdiction where it found a transfer decision
plausible. 486 U.S. at 818-19. The Court gave this
instruction precisely so that it would not need to intervene in every particularized jurisdictional disagreement
between two circuits. Id. To grant review would
undermine this core tenet of Christianson by encouraging the courts of appeals to look increasingly to this
Court to decide particularized inter-circuit jurisdictional
disputes they are equipped to resolve themselves.

8
Contrary to Xitronix’s suggestion, the Federal Circuit
in this case did not simply decide the appeal under
protest like it did in Christianson. Pet. 17-18. Instead,
the Federal Circuit properly examined the Fifth Circuit’s
decision under Christianson’s “plausibility” standard.
Pet. App. 3a-7a. While Xitronix plays up the Federal
Circuit’s criticism of particular aspects of the Fifth
Circuit’s reasoning, Pet. 12-13, the Federal Circuit
expressly found the Fifth Circuit’s underlying transfer
decision to be plausible as a whole, Pet. App. 6a-7a.
That the Federal Circuit and the Fifth Circuit
disagreed on jurisdiction as an original matter is
unremarkable. The very nature of the plausibility
standard means that a court of appeals may accept
jurisdiction in cases where, if left entirely to its own
devices, it would have rejected jurisdiction. Yet this
Court need not intervene to resolve those disagreements. In fact, this Court expressly advised that it
should not be called upon to resolve these disputes
when—as here—the circuits themselves prove up to
the task through their use of the law of the case doctrine. Christianson, 486 U.S. at 818-19. Intervention
into this particularized, now-resolved inter-circuit jurisdictional dispute is therefore unnecessary.
II. There Is No Circuit Split that Matters Here
Deprived of its principal ground for certiorari,
Xitronix insists there is still a circuit split that needs
to be resolved here. Pet. 13-14. But that is not so.
With this particular jurisdictional dispute resolved,
any remaining disagreement between the two courts
of appeals does not warrant review here.
The Federal and Fifth Circuits initially disagreed on
whether the Federal Circuit had exclusive jurisdiction
over Xitronix’s appeal. Again, there is nothing remark-

9
able about that. Christianson contemplates these
types of disagreements and illuminates the proper
mechanism to resolve them: accept transfer under the
law of the case doctrine if the transfer decision is
“plausible.” 486 U.S. at 818-19.
It is reasonable to expect that, in most cases, the
original transferee court will accept jurisdiction as
plausible. But the plausibility standard is not just a
rubber stamp, and courts are not supposed to accept
jurisdiction out of mere resignation or protest. See
Christianson, 486 U.S. at 818-19. Here, the Fifth
Circuit found the Federal Circuit’s original transfer
decision implausible. The Federal Circuit then determined the Fifth Circuit’s transfer decision to be plausible.
Ultimately, therefore, the courts arrived at the same
result. The original difference of opinion does not yield
a circuit split that requires this Court’s intervention.1
Xitronix hypothesizes that the Federal Circuit’s original transfer decision portends future division. But
there is no need to take this case to address these
highly speculative concerns.
For example, Xitronix speculates that this issue might
arise again between the Fifth Circuit and Federal
Circuit. Pet. 16-17. This, of course, would require an
appeal arising in exactly the same unusual procedural
posture of this case: (1) an antitrust claim that is based
solely on a Walker Process theory of fraud on the Patent
Office, (2) where that claim is raised in the plaintiff’s
1

In light of these facts, Xitronix’s insistence that Christianson’s
law-of-the-case “failsafe did not work” is incorrect. Pet. 18. It did
work: the case is not endlessly ping-ponging back and forth between
the circuits, and the Federal Circuit accepted jurisdiction because
it found the Fifth Circuit’s transfer decision plausible under
Christianson.

10
complaint (and not, for example, as a counterclaim to
a patent infringement complaint), (3) where there is
no other basis for the Federal Circuit’s exclusive jurisdiction, and (4) the complaint is filed in a district court
within the Fifth Circuit. This remote scenario is
hardly a basis for certiorari here.
Nor does this scenario raise the forum-shopping concerns that Xitronix alleges, Pet. 22-23. In the above
hypothetical scenario, the case will be transferred to
the Federal Circuit regardless of whether the appeal
is filed initially in the Fifth Circuit or (as in this case)
in the Federal Circuit. And a true conflict will arise
only if that future Federal Circuit panel acts in a
manner opposite of the panel in this case without en
banc remediation.
Xitronix also hypothesizes that a carbon-copy
lawsuit might generate a conflict if filed in a district
court within a regional circuit other than the Fifth
Circuit. Pet. 22-23. In that scenario—already highly
speculative—it would require the regional circuit to
act in a manner contrary to the Fifth Circuit here. If
the appeal is filed originally in the regional circuit, it
would need to accept jurisdiction. If the appeal is filed
originally in the Federal Circuit and then transferred,
it would require the regional circuit to find the Federal
Circuit’s transfer decision plausible. Only then might
there be a split of real consequence, and it technically
would be among the regional circuits. Such highlyattenuated chains of events hardly justify certiorari in
a matter where the case-specific jurisdictional dispute
has already been resolved in the manner this Court
prescribed in Christianson.

11
III. There Is No Need or Justification to
Revisit Christianson
The residue of Xitronix’s petition is essentially a call
for this Court to overrule Christianson and rewrite 28
U.S.C. § 1295(a)(1)’s legislative prescription of “arising
under” jurisdiction. Reaching beyond the narrow procedural confines of this case—and again contradicting
the position it repeatedly urged upon the Federal
Circuit—Xitronix now advocates that all appeals involving a Walker Process theory should go to the regional
circuits. At least two fundamental doctrines militate
strongly against Xitronix’s invitation.
First, Xitronix has not shown why this Court should
even contemplate departing from stare decisis by overruling Christianson. Nothing about the Christianson
decision has proven conceptually unsound or practically unworkable in the 30-plus years since its issuance. Xitronix nonetheless complains that Christianson
requires a case-specific analysis of whether an antitrust claim that may be imbued with a patent-law
theory falls within or outside the Federal Circuit’s
jurisdiction. But this hardly justifies overruling longstanding precedent for resolving these questions.
For one thing, in many cases, this line-drawing is
not particularly difficult. Here it was easy: Xitronix
pled and litigated throughout the case only a single
antitrust claim based solely on a Walker Process theory
of fraud on the Patent Office. Christianson provides a
clear answer to the question of appellate jurisdiction
in such cases. 486 U.S. at 809-813.
Moreover, line-drawing is the essence of the law,
and those lines are not always bright. Most of all, the
need to draw lines here is a result of Congress’s
decision to use the phrase “any civil action arising

12
under [the patent laws]” in 28 U.S.C. § 1295(a)(1).
Christianson interpreted and applied this statutory
language in a manner that has proven workable to
resolve jurisdictional issues in this and other cases.
Xitronix has not established any of the factors that
might warrant an exceptional departure from precedent here. And stare decisis applies with “special force”
to such statutory interpretation precedents because of
Congress’s preeminent role in shaping policy through
legislation. Patterson v. McLean Credit Union, 491 U.S.
164, 172 (1989). Congress can legislatively overrule
an interpretive decision of this Court with which it
is dissatisfied and, as discussed below, it notably has
declined to do so here.
Second, acceptance of Xitronix’s argument would
effectively rewrite the relevant jurisdictional statutes.
Congress gave the Federal Circuit exclusive jurisdiction over appeals in “any civil action arising under [the
patent laws].” Xitronix’s proposal to send all appeals
involving Walker Process theories—both “standalone”
Walker Process claims and “one theory among several”
claims—to the regional circuits would effectively amend
the statute. Christianson’s interpretation of Congress’s
“arising under” language would be replaced with a
judicially-crafted bright-line rule.2 Xitronix’s sweeping
2

In Gunn, this Court declined to articulate a bright-line test
for whether a case fits the “special and small category” of cases
that “arise under” federal law even though federal law did not
create the cause of action. 568 U.S. at 258 (observing the contours
of prior cases resembled a Jackson Pollock canvas and imposing
a four-part test); see also Grable & Sons Metal Products, Inc. v.
Darue Engineering & Mfg., 545 U.S. 308, 314 (2005) (“[T]he
presence of a disputed federal issue and the ostensible importance
of a federal forum are never necessarily dispositive; there must
always be an assessment of any disruptive portent in exercising
federal jurisdiction.”); Christianson, 486 U.S. at 821 (observing

13
request is not a call for genuine judicial decisionmaking, but rather an improper invitation to engage
in judicial legislation. And to what end? Xitronix has
not shown that Christianson has proven unsound or
unworkable—either before or after Gunn—such that
this extraordinary step is warranted. And even if
reform were somehow warranted, Congress is the appropriate forum for Xitronix’s petition—not the courts.
Respect for the legislative design is especially warranted here. Congress not only has left the relevant
jurisdictional language unchanged in the three-plus
decades after Christianson, but it also has amended
other language in precisely the same statutory subsection in response to a subsequent decision of this Court.
Specifically, in the 2011 America Invents Act, Congress
amended 28 U.S.C. § 1295(a)(1) to legislatively overrule this Court’s decision in Holmes Group, Inc. v.
Vornado Air Circulation Systems, Inc., 535 U.S. 826
(2002). See Leahy-Smith America Invents Act sec. 19,
Pub L. No. 112-29, 125 Stat. 284, 332 (2011). In that
amendment, Congress expanded § 1295(a)(1) to give the
Federal Circuit appellate jurisdiction over compulsory
patent and plant-variety protection counterclaims. Yet
Congress left § 1295(a)(1)’s “arising under” language
unchanged and did nothing else to modify the effect
of Christianson. These circumstances further counsel
against certiorari in this case. See Faragher v. City of
Boca Raton, 524 U.S. 775, 792 (1998) (“And the force
of precedent here is enhanced by Congress’s amendment to the liability provisions of Title VII since the
Meritor decision, without providing any modification
of our holding.”).

that “whether a claim arises under the patent laws” has “no
single, precise, all-embracing definition”) (Stevens, J., concurring).

14
In sum, once the threat of endless jurisdictional ping
pong vanished, so did any potential need for review.
Neither the alleged circuit split nor Xitronix’s policy
arguments justify review—especially in an area where
this Court already has extolled the virtue of circuitlevel resolution without its intervention. The petition
therefore should be denied.
IV. Xitronix Overstates the Importance of
This Case
The jurisdictional issue in this case is tethered to a
particular type of claim arising in an atypical procedural posture. Xitronix has offered no good reason to
believe that standalone Walker Process claims raised
in a complaint, accompanied by no theory of antitrust
liability other than alleged fraud on the Patent Office,
will be anything more than a very rare occurrence.
See Nobelpharma AB v. Implant Innovations, Inc., 141
F.3d 1059, 1067 (Fed. Cir. 1998) (en banc) (“[A]n antitrust claim premised on stripping a patentee of its
immunity from the antitrust laws is typically raised as
a counterclaim by a defendant in a patent infringement suit.”).
Xitronix misuses Judge Newman’s dissent from the
denial of rehearing en banc as purported evidence that
this issue is of great national importance regardless of
how it is decided. Pet. 24. But that is not what the
dissent signifies. Judge Newman’s point was simply
that if the Federal Circuit were to initiate such a major
change in patent jurisdiction, then the court should
consider the issue en banc. Pet. App. 53a-54a, 68a69a. A major change of course did not happen here
because the Federal Circuit ultimately accepted jurisdiction. So the legitimate concerns raised by Judge
Newman’s dissent are no longer at stake in this case.

15
Moreover, if the Federal Circuit’s initial decision
disclaiming jurisdiction in this case were to become
relevant in future litigation and yield a different ultimate result, the Federal Circuit itself may very well
choose to resolve the issue en banc at that time. In all
events, there is no need for this Court to intervene
now.3
Xitronix’s allegations of “widespread national confusion” (Pet. 19) are chimerical. Of the three other
circuit cases it cites, only one involved a Walker Process
theory. See In re Lipitor Antitrust Litig., 855 F.3d 126
(3d Cir. 2017). The Third Circuit resolved that case
easily under Christianson because the “plaintiffs could
obtain relief on their section 2 monopolization claims
by prevailing on an alternative, non-patent-law theory.”
Id. at 146. The court expressly noted that it did not
need to address any potential question raised by
Gunn. Lipitor, 855 F.3d at 146. The other two cases
merely involved fact-specific applications of Gunn to
state-law claims. See Seed Co. Ltd. v. Westerman, 832
F.3d 325 (D.C. Cir. 2016); MDS (Canada) Inc. v. Rad
Source Techs., Inc., 720 F.3d 833 (11th Cir. 2013).4
3

Indeed, even if Xitronix’s prediction that “there will inevitably be more instances in which cases are transferred back and
forth between regional circuits and the Federal Circuit” (Pet. 22)
were to prove true, then that simply would mean this Court will
have opportunities to decide whether a more appropriate vehicle
warrants review. For example, in such a hypothetical case, it is
possible that neither circuit will find the other’s transfer decision
plausible—unlike what happened here. A more appropriate
vehicle would also involve a petitioner who—unlike Xitronix
here—took a consistent position throughout rather than engaging
in mid-case forum-shopping.
4

Rather than “widespread confusion,” these cases demonstrate
that Christianson’s test applies to indisputably federal causes of
action that raise embedded patent law issues and that Gunn’s test,

16
Xitronix’s policy concerns about calling upon the
Federal Circuit to sometimes resolve antitrust claims
are also overblown. Pet. 28-29. This can happen in
other circumstances, such as when antitrust claims
are brought along with or as counterclaims to patent
infringement claims. And in these circumstances,
Congress has seen fit for the Federal Circuit to exercise exclusive jurisdiction over the entire appeal—not
just the patent infringement claims—even where there
are no patent-law issues on appeal. See 28 U.S.C.
§ 1295(a)(1). The only legislative policy that is clearly
at stake is the need for legal uniformity and judicial
expertise in patent cases—not any notion that the
Federal Circuit will be any less competent to resolve
antitrust issues than the regional circuits. See
Christianson, 486 U.S. at 813 (noting that “one of
Congress’ objectives in creating a Federal Circuit with
exclusive jurisdiction over certain patent cases was
‘to reduce the widespread lack of uniformity and
uncertainty of legal doctrine that exist[ed] in the administration of patent law’”) (citing H.R. Rep. No. 97-312,
p. 23 (1981)). If Congress is dissatisfied with the policy
decision it made in this regard, then Congress is free
to amend the statute it enacted. Xitronix’s invitation
for this Court to pick up the legislative pen itself
should be declined.

with its federalism principles, applies to determine whether state
law causes of action nevertheless arise under the federal patent
laws. Compare Lipitor, 855 F.3d at 146 (applying Christianson to
federal antitrust claim), with Seed Co., 832 F.3d at 331 (applying
Gunn to state law malpractice claim that satisfied requirements
of diversity jurisdiction), and MDS (Canada), 720 F.3d at
841-42 (applying Gunn to state law breach of contract claim that
satisfied requirements of diversity jurisdiction).

17
Finally, this case does not involve any of the federalism stakes that animated this Court’s decision in
Gunn. Rather, the case concerns only the allocation of
jurisdiction among the federal courts of appeals over
indisputably federal claims. And as explained above,
there is no need to revisit a matter that this Court
settled in Christianson—especially where Congress
has seen fit to leave Christianson alone while abrogating the subsequent Holmes Group decision in amending
other language in the same statutory subsection.
V. The Federal Circuit Has Jurisdiction In
Any Event
Certiorari is unwarranted for all the above reasons.
In addition, the Fifth Circuit’s decision and the
Federal Circuit’s ultimate acceptance of jurisdiction
were correct.
The Fifth Circuit’s decision and Federal Circuit Judge
Newman’s opinion explain in detail why jurisdiction
lies in the Federal Circuit here. Pet. App. 8a-37a,
53a-69a. In short, Christianson prescribed the test for
determining whether the Federal Circuit has exclusive appellate jurisdiction over a Walker Process claim.
See Christianson, 486 U.S. 809-10 (holding that the
Federal Circuit has appellate jurisdiction in “cases in
which a well-pleaded complaint establishes either that
federal patent law creates the cause of action or that
the plaintiff’s right to relief necessarily depends on
resolution of a substantial question of federal patent
law, in that patent law is a necessary element of one
of the well-pleaded claims,” whereas “a claim supported by alternative theories in the complaint may
not form the basis for [Federal Circuit] jurisdiction

18
unless patent law is essential to each of those theories”).5
This Court’s decision in Gunn neither expressly nor
implicitly revoked this framework for analyzing
appellate jurisdiction over Walker Process claims.
Rather, Gunn involved a state-law legal malpractice
claim that contained a patent-related “case within a
case.” 568 U.S. at 259. This Court defined the issue
solely in terms of federal vs. state domains: “The question presented is whether a state law claim alleging
legal malpractice in the handling of a patent case must
be brought in federal court.” Id. at 253. The Court
likewise defined the broader inquiry in terms of federal
vs. state interests: “Does the ‘state-law claim necessarily raise a stated federal issue, actually disputed
and substantial, which a federal forum may entertain
5

An antitrust claim premised solely on a Walker Process theory
necessarily depends on the resolution of two substantial questions of federal patent law: (1) whether there has been a fraud on
the Patent Office and (2) whether there has been enforcement of
a patent. Walker Process, 382 U.S. at 174 (“the enforcement of a
patent procured by fraud on the Patent Office may be violative of
§ 2 of the Sherman Act provided the other elements necessary to
a § 2 case are present”) (emphasis added). The petition misreads
Christianson when it incorrectly argues that because a standalone Walker Process claim may rise or fall on the “other elements
necessary to a § 2 case,” the patent procurement and enforcement
elements are insubstantial under Christianson. Pet. 25-26.
Christianson also involved a § 2 attempted monopolization claim,
which Xitronix notes requires “[attempted] monopolization of a
relevant market” even for Walker Process claims. Pet. 25-26.
Relying on such elements to conclude that the patent law
elements can never be substantial under Christianson would
nullify the Christianson test and render the decision nonsensical.
Why would the Court have focused the analysis on whether a
substantial question of patent law is essential to all theories of
recovery if all it needed to do was point to an antitrust element
as a basis for sending all such claims to the regional circuits?

19
without disturbing any congressionally approved balance
of federal and state judicial responsibilities’?” Id. at
258 (quoting Grable & Sons Metal Products, Inc. v.
Darue Engineering & Mfg., 545 U.S. 308, 314 (2005)).
The Court then applied a legal test framed in terms of
federal vs. state interests: “federal jurisdiction over a
state law claim will lie if a federal issue is: (1) necessarily
raised, (2) actually disputed, (3) substantial, and
(4) capable of resolution in federal court without disrupting the federal-state balance approved by Congress.”
Id. And the Court couched its holding solely in terms
of federal vs. state interests: “we are comfortable
concluding that state legal malpractice claims based
on underlying patent matters will rarely, if ever, arise
under federal patent law for purposes of §1338(a).
Although such cases may necessarily raise disputed
questions of patent law, those cases are by their
nature unlikely to have the sort of significance for the
federal system necessary to establish jurisdiction.” Id.
at 258-59.
This Court gave no reason to believe that Gunn’s
element of “capable of resolution in federal court without disrupting the federal-state balance approved by
Congress” would govern appellate jurisdiction over
indisputably federal standalone Walker Process claims
like the one Xitronix asserted here. Rather, Christianson
had already supplied all the tools necessary to resolve
the appellate jurisdictional task in cases like this one.
There is no plausible reason to believe that, in tackling
the deeper issues posed by questions of state vs. federal
original jurisdiction in Gunn, the Court silently disrupted Christianson’s settled allocation of federal
appellate jurisdiction over federal antitrust claims
involving Walker Process theories among the federal
courts of appeals. In fact, in Gunn, this Court cited
Christianson for a background legal premise without

20
once stating or suggesting it was calling into question
any aspect of its Christianson decision. Gunn, 568
U.S. at 257.
To the extent, as Xitronix alleges, there may be some
uncertainty about the application of Gunn in other
contexts, this case is an easy one that does not implicate those other factual scenarios. After all, Christianson
resolved precisely the jurisdictional question presented
by Xitronix’s Walker Process theory: is patent law a
necessary element of Xitronix’s antitrust claim? And
as the Fifth Circuit explained, there is no plausible
argument for regional circuit jurisdiction even if Gunn’s
state vs. federal framework were applied to this situation. Pet. App. 31a-32a (analyzing forward-looking
challenge to validity of patent, requirement that a
given statement or omission is “material to patentability,” and potential to prescribe standards of
conduct for practitioners before the PTO). Regardless
of whether a substantial case for certiorari ever arises
in those other contexts, this case would be a poor
vehicle for advisory guidance on issues not presented.
CONCLUSION
Over thirty years ago, this Court showed the courts
of appeals the path to resolve jurisdictional disagreements like the one that arose here without needing
this Court’s intervention every time. Despite their
initial disagreement, the Fifth and Federal Circuits
properly resolved the jurisdictional dispute under
Christianson. There is accordingly no circuit split that
matters here. Nor is there any other need for this
Court’s intervention. The petition for certiorari therefore should be denied.

21
Respectfully submitted,
AARON G. FOUNTAIN
Counsel of Record
JOHN M. GUARAGNA
DLA PIPER LLP (US)
401 Congress Ave.
Suite 2500
Austin, TX 78701
(512) 457-7000
aaron.fountain@us.dlapiper.com
Counsel for Respondent
August 23, 2019

